audit report
Return to the USDOJ/OIG Home Page
Memorandum Audit Report
Report No. 97-16
Office of the Inspector General
MEMORANDUM FOR
STEPHEN R. COLGATE
ASSISTANT ATTORNEY GENERAL
FOR ADMINISTRATION
JUSTICE MANAGEMENT DIVISION
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
MEMORANDUM AUDIT REPORT, 97-16 -- Immigration
and Naturalization Service Data Input Procedures,
State of New York Complaint
This memorandum presents the final report prepared by the Office of the Inspector
General (OIG), Audit Division, on the Immigration and Naturalization Service's (INS) Data
Input Procedures based on a complaint by the State of New York. The report was discussed
with your staff and they concurred with our findings. Our objective, scope, and
methodology are contained in the Attachment.
Background
The State Criminal Alien Assistance Program (SCAAP) is funded through the Office of
Justice Program's (OJP) Bureau of Justice Assistance (BJA). The purpose of the program is
to reimburse states and localities for the cost of incarcerating illegal aliens convicted
of felony offenses. For FY 1995, SCAAP reimbursed the states about $130 million.
Generally, the INS' function in processing a SCAAP reimbursement request was as follows:
Each state provided BJA with a listing of inmates whom it suspected
were illegal aliens.
BJA provided the list to the INS to determine if inmates were
eligible for reimbursement based on the established criteria. INS compared the list to its
Central Index System (CIS) and the Deportable Alien Control System (DACS) databases to
make the determination.
INS either: (1) matched the name with CIS or DACS, and determined
that the alien status met reimbursement criteria; (2) matched the name but the alien
status did not meet reimbursement criteria; or (3) did not match the name.
BJA reimbursed the states for all eligible inmates identified by  the INS. In addition, states were allowed reimbursement for a percentage of their  unmatched inmates, based upon a standard formula developed by BJA and INS.
In July 1996, the New York Department of Correctional Services (NYDOCS) complained that
for FY 1995, it had not received full reimbursement from OJP for its incarcerated illegal
aliens. The NYDOCS believed that INS was not tracking aliens housed in state institutions,
and was not updating the INS CIS and DACS databases in a timely manner. Therefore, New
York officials believed they were under-reimbursed.
In response to the complaint, the Attorney General and Deputy Attorney General
requested that a SCAAP Working Group (SWG) look into the NYDOCS complaint. The SWG, under
the direction of the Counsel to the Deputy Attorney General, was comprised of members from
the Justice Management Division (JMD), BJA, and INS. The SWG requested that JMD take the
lead in addressing the INS automation related issues. The group generally agreed that the
INS' failure to verify all of NYDOCS' alien inmates claimed was not due to systems-related
problems with the INS databases; rather, there appeared to be problems with the management
of INS' data input procedures. The OIG was also asked to review the issue and our results
follow.
Results
For FY 1995, New York requested reimbursement for 3,979 inmates. OJP reimbursed the
state approximately $13 million for 2,390 inmates (60 percent). The reimbursement for the
2,390 inmates was based on INS' matching of 1,514 eligible illegal aliens and allowing an
additional 876 inmates, based on the standard formula for inmates whose statuses were
unknown.
We asked New York officials what criteria they used to submit names to OJP for
reimbursement and were told that they generally submitted inmates with INS alien numbers
(A-numbers). However, INS officials stated that not all aliens with A-numbers were
eligible for reimbursement because many were legal resident aliens. In our judgment, this
is one reason why NYDOCS was not reimbursed to the extent it had anticipated. Another
reason was that INS' CIS and DACS databases did not contain current Institutional Hearing
Program (IHP) information.
The IHP is a nationwide program that allows INS investigators to interview incarcerated
criminal aliens at mostly state institutions to determine whether they are deportable. INS
stated that during FY 1996, its agents interviewed 23,367 state prison inmates under the
IHP in California, Texas, New York, Florida, and Illinois. If an inmate is determined
deportable through the IHP, INS lodges a detainer with the institution, instructing
officials to release the inmate into INS custody at the conclusion of the inmate's
sentence. The goal of the program is to deport criminal illegal aliens immediately upon
completion of their sentences and to avoid additional detention costs to INS.
The IHP process requires INS agents to perform background analyses on alien inmates,
conduct inmate interviews, and prepare documents necessary for deportation hearing
proceedings. We estimated that the processing time to complete an Order to Show Cause
(OSC)1 can range from 17 to 399 days,
depending on the complexity of the case. Although there is a wide variance in time for
completing the entire OSC process, we found that agents should generally be able to
determine an inmate's alien status within 1 to 2 weeks after the inmate interview.
We also found that, prior to the SCAAP, there was not a high priority for INS to enter
the statuses of incarcerated criminal aliens, based upon the IHP, into the CIS and DACS
databases. Generally, INS data transcribers entered alien data into CIS when it was
received from the investigative agents; however, the data did not always include alien
status. Detention and Deportation docket clerks entered alien data into DACS upon
receiving the inmate alien files from the investigative agents, which is after the
completion of all IHP investigation related tasks. Therefore, INS systems did not contain
up-to-date information on the statuses of all aliens incarcerated at state institutions
because of the time lag in data entry. The lack of current data in INS' databases could
have contributed to INS concluding that the status of an inmate was unknown during the
SCAAP matching process.
Changes in Procedures for FY 1996 SCAAP Reimbursements
We identified three areas where changes in procedures were implemented for the FY 1996
SCAAP. Each improved the inmate matching process. First, New York did not resubmit
previously determined "ineligible" inmates in its 1996 request.
Second, the INS IHP Director for New York implemented a policy to enter alien
information into CIS soon after an inmate's interview.
Third, prior to officially submitting inmate names for reimbursement, NYDOCS provided
the INS IHP Director in New York with a list of inmates that it intended to submit for
SCAAP. The NYDOCS requested that INS update the CIS to ensure current data for matching
purposes.
The CIS updating project significantly reduced the number of unmatched names for
NYDOCS. Review of the FY 1996 SCAAP application showed that New York reduced the number of
inmates for which it requested reimbursement. The published awards indicated that the
State of New York was reimbursed for approximately 97 percent (2,384/2,462) of the names
submitted. The higher FY 1996 reimbursement rate is a contrast to the 60 percent
reimbursement rate for FY 1995.
Conclusion
The State of New York was reimbursed for approximately the same number of criminal
aliens in FYs 1995 and 1996 (about 2,400). The overall dollar reimbursement was about $13
million in FY 1995 and about $47 million in FY 1996.2
The percentage of aliens reimbursed versus aliens submitted was vastly different for the 2
years (60 percent in FY 1995, 97 percent in FY 1996). We attribute the increased
reimbursement rate to: (1) inmate names determined ineligible for reimbursement in FY 1995
were not submitted for FY 1996, and (2) INS' CIS records were updated prior to INS' FY
1996 inmate matching process.
Based upon our review and analysis, we believe the problem identified in New York has
been corrected. Therefore, we offer no formal recommendations in this report and consider
the issue closed. We do, however, plan to test controls over SCAAP reimbursements
nationally during our ongoing audit of the SCAAP.
# # #
If you have any questions or would like to meet to discuss this report, please contact
me on (202) 514-3435 or M. Thomas Clark, Regional Audit Manager, San Francisco Regional
Audit Office, on (415) 876-9220.
Attachment
OBJECTIVE, SCOPE, AND METHODOLOGY
The audit was performed in accordance with generally accepted government auditing
standards. However, we may not be considered by others to be completely independent of INS
as required by the standards, because INS has reimbursed us for work that pertained to INS
fee-supported programs. The Office of Management and Budget and the Department of Justice
(including the OIG, the INS, and the JMD) disagree with INS funding our work and are
attempting to have the funds appropriated directly to the OIG. In FYs 1996 and 1997, the
OIG received $5 million for fee-related audits, investigations, and inspections. The
dollar amount funded approximately 14 percent of the total OIG staff positions.
Nonetheless, we consider ourselves independent and do not believe that our reimbursement
arrangements with INS have had any effect with regard to our conduct of this audit. Our
objective was to review management of data input procedures identified in the NYDOCS
complaint.
We discussed the complaint with NYDOCS officials in Albany, New York. We also
interviewed INS officials at the district offices in New York and San Francisco, and
documented the IHP interviewing, processing, and data input procedures. Our review work in
the districts included on-site work at the Downstate Correctional Facility in New York and
San Quentin Prison in California, to observe and document the IHP interview process at
these state intake centers. Our review did not include any assessment of compliance with
laws or regulations.
Footnotes
An OSC is prepared to place an alien in deportation proceedings under Section 242 of the Immigration and Nationality Act.
The
difference in reimbursement is due to an almost 300 percent increase in nationwide SCAAP funding. SCAAP funding was $130 million for FY 1995 and $500 million for FY 1996.
#####